No. 20-538
IN THE

ttp-retitt (hurt of tile UMW! ftttes
RENTBERRY, INC. AND DELANEY WYSINGLE,
Petitioners,
v.
THE CITY OF SEATTLE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF AMICUS CURIAE RENTAL
HOUSING ASSOCIATION OF WASHINGTON
IN SUPPORT OF PETITIONERS

A. TALMADGE
Counsel of Record

PHILIP

TALMADGE/FITZPATRICK

2775 Harbor Avenue SW,
Third Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Counsel for Amicus Curiae

299752
COUNSEL PRESS
(800) 274-3321 • (800) 359-6859

2

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES

iii

INTEREST OF AMICUS CURIAE RHAWA

1

STATEMENT OF THE CASE

2

SUMMARY OF ARGUMENT

5

ARGUMENT

5

The Purpose of 42 U.S.C. § 1983 Actions
to Vindicate Federal Constitutional Rights.
Is Undercut by Giving Government the
Opportunity to Moot Such Claims Without
Proving the Unequivocal Cessation of
Unconstitutional Conduct in the Future

6

Governments, Like Other Parties, Should
Not Be Able to Render a 42 U.S.C. § 1983
Action Moot, Unless They Unequivocally
Cease the Unconstitutional Acts that
Were the Predicate for Such Action

8

22

Table of Contents
Page
(3) The City Has Not Unequivocally Ceased
Its Unconstitutional Practices, Particularly
Given Its Council's Implacable Hostility
Toward Landlords
D. CONCLUSION

11
15

iv'

TABLE OF CITED AUTHORITIES
Page
CASES
Adarand Constructors, Inc. v. Slater,
528 U.S. 216 (2000)

9

Already LLC v. Nike, Inc.,
568 U.S. 85 (2013)

8

Bd. of Trustees of Glazing Health and Welfare
Trust v. Chambers,
941 F.3d 1195 (9th Cir. 2019)

9

City of Mesquite v. Aladdin's Castle, Inc.,
455 U.S. 283 (1982)
County of Los Angeles v. Davis,
440 U.S. 625 (1979)
Fikre v. Fed. Bureau of Investigation,
904 F.3d 1033 (2018)

12
9
8, 9

Friends of Earth, Inc. v.
Laidlaw Enet Servs., (TOC), Inc.,
528 U.S. 167 (2000)

8

Lopez v. Candaele,
630 F.3d 775 (9th Cir. 2010)

7

Los Angeles County, Cal. v. Humphries,
562 U.S. 29 (2010)

7

iv
Cited Authorities
Page
Monell v. Dep't of Social Servs. of the
City of New York,
436 U.S. 658 (1978)

6, 7

Parents Involved in Community Schools v.
Seattle Sch. Dist. No. 1,
551 U.S. 701 (2010)

8

Reed v. Town of Gilbert,
576 U.S. 155 (2015)

7

Rentberry, Inc. v. City of Seattle,
814 F. App'x 309 (9th Cir. 2020)
Sorrell v. IMS Health, Inc.,
564 U.S. 552 (2011)

10
7, 12

STATUTES AND OTHER AUTHORITIES
U.S. Const. Amend. I

passim

42 U.S.C. § 1983

passim

Fed. R. Civ. P. 10(c)
Fed. R. Civ. P. 37(2)(a)

5, 15
1

Ordinance 125551

passim

Ordinance 125840

2, 4

V
Cited Authorities
Ordinance 126053

Page
passim

Seattle Keeps Making It Harder for Small
Landlords Like Us, Seattle Times,
Feb. 9, 2020

13

Seattle City Council Mem., March 2, 2020,
https://seattle.legistar.com/ View.ashx
?M=F&ID=8169362&GUID=13F261E39B02-4F1C-AFEE-B291Al2E5B40

3, 4

Seattle City Council Mem., May 31, 2019,
https://seattle.legistar.com/ View.ashx
?M=F&ID=7283899&GUID=4D779D3F
-7241-47E0-B10A-7A512F498E67

4

SMC 14.08

12

1
A. INTEREST OF AMICUS CURIAE RHAWA
This memorandum is submitted on behalf of the
Rental Housing Association of Washington ("RHAWA")
supporting the petitioners' petition for a writ of certiorari
to the United States Court of Appeals for the Ninth
Circuit. This memorandum is filed with the consent of the
parties pursuant to Rule 37(2)(a).'
RHAWA is a 5,000 plus member non-profit organization
of rental housing owners (single family homes to multifamily communities) in Washington. Its objectives are to
oversee the general welfare of the rental housing industry,
lead advocacy efforts, provide continuous development
of skills and knowledge, and assist members to provide
appropriate services to the renting public.
RHAWA represents the interests of rental housing
owners to state and local legislative bodies, news media
and the general public. RHAWA is actively involved in the
Washington State Legislature and local governments on
any legislation affecting landlords. Its staff studies the
regular meeting agendas of the local governments, meets
with city and county council members, and reports to its
board about any issues which affect the local community.
RHAWA has participated as an amicus curiae in
Washington State courts and in this Court.
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amici curiae, their members, or their counsel
made a monetary contribution to its preparation or submission.
The parties were provided notice and have consented to the filing
of this brief.

2
RHAWA is also involved in educating and encouraging
member involvement on issues affecting the rental housing
industry. RHAWA offers educational programs which
enhance rental property owners' knowledge and provides
different fora for the sharing of pertinent information
in the rental housing industry and social interaction.
RHAWA also offers products and services rental property
owners need to be successful, while encouraging the
highest standards of ethics and integrity for its members.
RHAWA promotes the value of the rental housing industry
to the community and educates renters about the process
of becoming a tenant and being a good tenant.
RHAWA members have utilized in the past, and would
utilize in the future, rent bidding websites that are the
subject of this action.
B. STATEMENT OF THE CASE
RHAWA adopts the Statement of the Case set forth
in the petitioners' petition at 6-13. As noted there, the
City of Seattle's ("City") Council has enacted three
ordinances addressing rent bidding websites. Ordinance
125551 banned rent bidding websites for a year, amended
by Ordinance 125840, renewing the ban. App. at 71a-80a.
Ordinance 126053 that theoretically repealed the Council's
prior ban on rent bidding websites, app. at 106a-112a, was
a far cry from an unequivocal cessation of its prohibition
on such websites. Rather, the Council made clear that its
new ordinance is a proverbial Sword of Damocles held
over such websites to ensure that they either knuckle
under to the Council's demands as to their structure and
operations, or they will be banned. In the meantime, the
City would seek to improve its posture for future litigation
on such websites.

3
Initially, the City's ban on rent bidding websites
was either the product of remarkable incompetence or
blatant bad faith. The ostensible rationale for Ordinance
125551 and its moratorium on rent bidding websites was
the need for "additional information" regarding their
operation. However, as the Council's own staff admitted
in a memorandum on Ordinance 126053, no data could be
gathered if the websites were shut down:
Data collection on the use and function of rental
housing bidding platforms is not possible when
a prohibition is in place. Moreover, without such
data the City cannot determine whether bidding
platforms have an impact on equitable access.
Seattle City Council Mem., March 2, 2020, https://
seattle.legistar.com/ View. ashx?M=F&ID = 8169362 &
GUID =13F261E3-9B02-4F1C -AFEE-B291Al2E5B 40.
By this remarkable admission, the Council conceded
that its ban on rent bidding websites, and the attendant
violation of users' First Amendment rights for 12 months2
was unjustified. The Council had no data and could not
obtain any actual data on the websites' activities; those
websites involved a legitimate exercise of First Amendment
rights by the bidders and the websites themselves. Such a
suppression of First Amendment rights by a government
on unsubstantiated, vague impressions of "misuse" of such
sites clearly violated their users' First Amendment rights.
Although the City claims Ordinance 126053 repealed
the earlier prohibition of rent bidding websites, the City's
decision to "cease" its unconstitutional conduct was not
2. The ban existed from April 30, 2018 to April 30, 2019.

4
unequivocal but rather was a strategic one, calculated to
better support its position on § 1983 litigation that had
been filed; it was not a complete, unequivocal cessation
of its unconstitutional conduct in the future. The staff
memorandum on Ordinance 125840 was fully aware of
this litigation. Seattle City Council Mem., May 31, 2019,
https://seattle.legistar.com/ View.ashx?M=F&ID=72838
99&GUID=4D779D3F-7241-47E0-B10A-7A512F498E67.
Similarly, the Council staff memorandum on Ordinance
126053 clearly understood that the Council ban on rent
bidding websites was the subject of § 1983 litigation:
Shortly after passage of Ordinance 125551,
Rentberry and a private individual sued the
City, arguing that the prohibition interfered
with freedom of speech. On March 15, 2019, the
U.S. District Court for the Western District
of Washington ruled in favor of the City. The
Plaintiffs appealed to the Ninth Circuit Court
of Appeals, where litigation on the current
prohibition is pending.
Seattle City Council Mem., March 2, 2020, https://
seattle.legistar.com/ View.ashx?M=F&ID=8169362&
GUID =13F261E3 -9B 02- 4F1C -AFEE -B291Al2E5B 40.
The Council fully appreciated that its legislation was
calculated to affect this litigation, and future litigation.
As will be noted infra, Ordinance 126053 also revealed
that it was not intended to be an unequivocal cessation of
the City's unconstitutional conduct, but merely a hiatus
in the City's war on such websites.

5
SUMMARY OF ARGUMENT
This case merits review by this Court under Rule 10(c).
The essential purpose of actions under 42 U.S.C.
§ 1983 is to vindicate constitutional rights. The City
violated the First Amendment rights of bidders who seek
to rent properties on rent bidding websites like Rentberry,
as well as the rights of the website operators themselves.
A policy on mootness that treats governments
differently than private actors by allowing them to assert
that they have theoretically ceased any unconstitutional
activities fundamentally undercuts the Congressional
purpose in enacting the constitutional tort, particularly
where there is no proof by the government that it has
unequivocally ceased the unconstitutional activity not
only for the present but in the future.
Here, there are ample grounds to believe that the City
has not unequivocally ceased its unconstitutional assault
on rent bidding websites or their users. Rather, the City
has opted for an interlude to defer a reckoning on its
unconstitutional behavior while it improves its litigation
posture. If the Court opts to retain a mootness analysis in
connection with actions under 42 U.S.C. § 1983, the Court
should require that governments and private entities
alike bear the burden of proving on the record that the
unconstitutional conduct has ceased unequivocally.
ARGUMENT
RHAWA fully agrees with the petitioners' argument
in their petition at 13-25 that the Ninth Circuit's invocation

6
of a "good faith cessation" principle to allow the City
to dodge its liability to the petitioners under 42 U.S.C.
§ 1983 on mootness grounds is improper. RHAWA focuses
its argument to this Court on why the City's assertion
that it has "ceased" its unconstitutional conduct toward •
petitioners is a mere smoke screen to buy time when it
fully intends to persist in its unconstitutional conduct. The
City should not be afforded relief on mootness grounds.
This Court should grant review to refine its mootness
principles, in the § 1983 setting, as petitioners have
requested.
(1) The Purpose of 42 U.S.C. § 1983 Actions to
Vindicate Federal Constitutional Rights
Is Undercut by Giving Government the
Opportunity to Moot Such Claims Without
Proving the Unequivocal Cessation of
Unconstitutional Conduct in the Future
In analyzing the question of mootness, it is important to
resort to the basic principles that animated Congressional
action in enacting 42 U.S.C. § 1983. As this Court is well
aware, by its terms, that 42 U.S.C. § 1983 establishes a
constitutional tort where an actor under color of state
law violates another's federal constitutional rights. The
importance of this tort to the Congressional purpose in
enacting the Civil Rights Act of 1871 vindicating federal
unconstitutional rights cannot be overstated. Monell
v. Dep't of Social Servs. of the City of New York, 436
U.S. 658, 665-89 (1978). Justice Brennan's painstaking
historical analysis in Monell made clear that the Act
applied to municipalities like the City. Municipalities may
be held liable as "persons" under § 1983 "when execution
of a government's policy or custom, whether made by its

7
lawmakers or by those whose edicts or acts may fairly be
said to represent official policy, inflicts the injury." Id. at
694. See also, Los Angeles County, Cal. v. Humphries,
562 U.S. 29 (2010).
Where First Amendment rights are restricted
or banned, a claim under 42 U.S.C. § 1983 is stated.
Government restrictions on expressive conduct require
heightened scrutiny and may violate the First Amendment,
even in the commercial setting. Sorrell v. IMS Health,
Inc., 564 U.S. 552, 567 (2011) (Vermont law that restricted
sale, disclosure, and use of pharmacy records involved
speech with an economic motive, but its burden on vital
expression violated the First Amendment). Attesting to
the importance of First Amendment claims, plaintiffs
have standing to raise such claims even in the absence of
direct inquiry from the challenged restriction. Lopez v.
Candaele, 630 F.3d 775, 785 (9th Cir. 2010).
Rentberry and Wysingle established the requisite
prima facie elements of a 42 U.S.C. § 1983 claim. The
City's ordinances suppress such First Amendment
expression under color of state law. The essence of
rent bidding websites is expression under the First
Amendment, communications regarding rental units.
The City's Ordinance 125551 banned expressive activity
by banning the affected websites; it singled out website
proprietors and users to foreclose such expressive activity,
thereby violating the First Amendment. Reed v. Town of
Gilbert, 576 U.S. 155, 163 (2015) ("Government regulation
of speech is content based if a law applies to particular
speech because of the topic discussed or the idea or
message expressed."). The City's prohibition was contentbased, attempting to prevent communications regarding

8
rental properties in Seattle. Rentberry and the users of
such sites like RHAWA's members will suffer harm.
(2) Governments, Like Other Parties, Should Not
Be Able to Render a 42 U.S.C. § 1983 Action
Moot, Unless They Unequivocally Cease the
Unconstitutional Acts that Were the Predicate
for Such Action
"Voluntary cessation does not moot a case or
controversy unless 'subsequent events ma[ke] it absolutely
clear that the allegedly wrongful behavior could not
reasonably be expected to recur."' Parents Involved
in Community Schools v. Seattle Sch. Dist. No. 1, 551
U.S. 701, 719 (2010) (quoting Friends of Earth, Inc. v.
Laidlaw Env't Servs., (TOC), Inc., 528 U.S. 167, 189
(2000)) (emphasis 'added). The burden of proving such a
true cessation of the wrongful conduct must fall squarely
upon the party claiming mootness. Already LLC v. Nike,
Inc., 568 U.S. 85, 91 (2013). "Otherwise, a defendant
could engage in unlawful conduct, stop when sued to
have the case declared moot, then pick up where he left
off, repeating this cycle until he achieves all his unlawful
ends." Id.
The petitioners have clearly articulated in their
petition at 16-20 that the decisions of the various Circuit
Courts of Appeals are split on the mootness analysis, too
often affording excessive latitude to governments that
theoretically cease unconstitutional practices so as to moot
legitimate 42 U.S.C. § 1983 claims.
The Ninth Circuit itself held in Fikre v. Fed. Bureau of
Investigation, 904 F.3d 1033 (2018) that a § 1983 claim by

9
a person placed by the FBI on a No Fly List was not moot
even though the FBI removed him from that list, stating:
Because there are neither procedural hurdles to
reinstating Fikre on the No Fly List based solely
on facts already known, nor any renouncement
by the government of its prerogative and
authority to do so, the voluntary cessation
doctrine applies. Fikre's due process claims
are not moot.
Id. at 1041. The court was particularly cognizant of the fact
that the voluntary cessation of unconstitutional conduct
does not automatically deprive the federal courts of the
power to hear a case absent assurance that there is no
reasonable expectation that the conduct can recur. Id.
at 1037 (citing County of Los Angeles v. Davis, 440 U.S.
625, 631 (1979)). Moreover, the party claiming mootness
has a "heavy burden" of proving that the unconstitutional
conduct cannot reasonably be expected to start up again.
Id. (citing Adarand Constructors, Inc. v. Slater, 528 U.S.
216, 222 (2000)). While a government is presumed to act
in good faith, that government must prove its behavior is
entrenched or permanent. Id. See also, Bd. of Trustees
of Glazing Health and Welfare Trust v. Chambers, 941
F.3d 1195, 1199 (9th Cir. 2019) (en banc) (recognizing
inconsistency in 9th Circuit mootness precedent and
holding that party challenging mootness need show only
that there is a reasonable expectation on the record that
the offending legislation will be reenacted).
The Ninth Circuit did not even comply with its own
mootness standard in Fikre. Contrary to the "heavy
burden" placed by this Court in Adarand Constructors on

10
the City to establish mootness, the court effectively placed
the burden of proving a "reasonable expectation" that
the City would not enact the same or similar ordinance
on petitioners. Rentberry, Inc. v. City of Seattle, 814 F.
App'x 309 (9th Cir. 2020). The City proved little as to
its future action concerning rent bidding websites, app.
at 36a-45a, and the Ninth Circuit opinion offers scant
evidence of any real analysis by that court of the City's
future conduct. Nothing in that opinion suggests thd
City will unequivocally cease its illicit treatment of rent
bidding websites. Instead, the court simply states that the
language of Ordinance 125551 and the City's "efforts to
gather data on the impact of rent-bidding platforms" fail
to overcome the presumption of government good faith.
The court obviously overlooks the legislative history of
the ordinances and the context of the Council's extreme
anti-landlord bias in making its summary "analysis."
The application of this "good faith" exception sweeps
far too broadly. Critically, absent a reaffirmation by
this Court of the proper test for mootness in the § 1983
setting, lower courts will be tempted to cut corners and
clear their dockets when governments purport to stop
unconstitutional activity.
This Court should grant review and direct that
governments may not render § 1983 cases moot by merely
claiming the unconstitutional conduct has ceased. Rather,
such defendants must bear the burden of proving that
the unconstitutional activity has ceased, and will not
recur in the future, to render any claim moot. A lower
court dismissing a § 1983 claim as moot must articulate
an analysis on the record that such a burden has been
sustained.

11
(3) The City Has Not Unequivocally Ceased Its
Unconstitutional Practices, Particularly Given
Its Council's Implacable Hostility Toward
Landlords
The City has not, in fact, ceased its unconstitutional
attempt to prohibit rent bidding websites in Seattle in
enacting Ordinance 126053. Pet. at 9-13. It has merely
delayed the effort to prohibit such First Amendmentprotected speech, as its legislative history documents.
Moreover, given the Council's well-documented antipathy
toward landlords generally, as will be noted infra, this is
hardly surprising.
With regard to Ordinance 126053, this Court need
go no further than the Ordinance's own language to
discern that the City has no intention of ceasing its
unconstitutional restrictions on rent bidding websites.
Section 3 of the Ordinance states:
Upon the effective date of the repeal of the
prohibition, the City Council requests that
the Office of Housing to collect data to track
whether rental housing bidding platforms are
functioning for bidding purposes or only for
advertising or other non-bidding functions, to
determine whether the use of the platforms
in Seattle is having an impact on equitable
access to Seattle's rental housing market. The
Council requests the Office of Housing provide
the results of its data collection and analysis by
June 1, 2021.

12
App. at 111a. Section 4 directs the City's Office for Civil
Rights to conduct testing to determine if such websites
comply with SMC 14.08. Section 5 contains an implicit
threat of further restriction:
The City Council requests that if the data has
shown that the platforms are functioning for
bidding purposes and there is an impact on
equitable access to rental housing, the Office
for Civil Rights and the Office of Housing work
with Council to determine whether and how the
recommendations outlined in the Rent Bidding
Study should be implemented, including
mitigating any unintended consequences.
Id.
Notwithstanding the euphemism of "mitigating any
unintended consequences," the fist is readily apparent
in that proverbial velvet glove. Nothing in the City's
supplemental Ninth Circuit brief on mootness dispels
the reality that its Council will likely regulate such sites
out of existence. The City would have the courts believe
that the flurry of studies by various City agencies will
not result in severe regulation of free speech on such
sites. App. at 40a-43a. "Lawmakers may no more silence
unwanted speech by burdening its utterance than by
censoring its content." Sorrell, 564 U.S. at 566. The
Council is not abandoning its intent to shut down rent
bidding websites and First Amendment-protected speech
therein, it is merely deferring such action to another day,
getting its position more firmly based for the litigation
it knows will come. See City of Mesquite v. Aladdin's
Castle, Inc., 455 U.S. 283, 289 n.11 (1982) (Court refused

13
to dismiss an appeal as moot where city revised the
challenged ordinance, but announced its intention to
reenact offending provisions in future).
Moreover, the Council's intent to continue its
suppression of rent bidding websites must be placed
in appropriate context of the Council's oft-expressed
legislative antagonism toward landlords. Ordinance
126053 is merely a pause while the Council strengthens its
position for litigation it knows will come when it resumes
its suppression of such websites. This fact is confirmed
by the Council's implacable antagonism toward landlords,
large and small.3
In the last few years, the Council has enacted
legislation
dictating to whom landlords can rent by mandating
the first person in time must be the lessee;
mandating that landlords accept roommates as
additional occupants under a rental agreement;
foreclosing criminal background checks on
prospective tenants and making persons with
criminal history a protected class;
limiting initial move-in charges by landlords, giving
tenants, in effect, interest-free loans;
3. See Seattle Keeps Making It Harder for Small Landlords
Like Us, Seattle Times, Feb. 9, 2020, https://www.seattletimes.
com/opinion/seattle-keeps-making-it-harder-for-small-landlordsincluding-a-propos ed-ban-on-winter-ev ictions/.

14
mandating payment plans when tenants cannot pay
their rent, without penalty or interest;
mandating notices on landlord's intent to sell;
mandating acceptance by landlords of non-electronic
payments;
mandating that landlords include voter registration
forms;
a rental inspection/registration ordinance that
precludes rental of any units that are not inspected
and allows city personnel the opportunity to conduct
illegal searches in the guise of the inspections;
establishing an eviction moratorium, without any
rental payments to landlords.
The Council has not respected landlord property
rights in the past, and it is highly unlikely that it will do
so in the future generally, or in the specific context of rent
bidding websites.
The City failed to sustain its requisite burden of
proving on the record that its First Amendment violative
conduct would not recur. Similarly, the Ninth Circuit's
memorandum opinion inadequately addressed the
City's proof, or lack thereof, of an unequivocal end to
its unconstitutional conduct, as required by this Court's
mootness jurisprudence.

15
D. CONCLUSION
This case presents an important one for the clear
articulation of this Court's mootness principles in the 42
U.S.C. § 1983 context where a government merely alleges
that it has discontinued on unconstitutional practice.
Review by this Court is merited. Rule 10(c). This Court
should grant a writ of certiorari to the United States Court
of Appeals for the Ninth Circuit.
DATED November 10, 2020.
Respectfully submitted,
PHILIP A. TALMADGE
Counsel of Record
TALMADGE/FITZPATRICK
2775 Harbor Avenue SW,
Third Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Counsel for Amicus Curiae

